                       UNITED STATES DEPARTMENT OF EDUCATION

                                    OFFICE OF INSPECTOR GENERAL

                                       61 FORSYTH STREET, ROOM 18T71 

                                           ATLANTA, GEORGIA 30303


        Telephone: (404) 562-6470                                           Fax: (404) 562-6509



MEMORANDUM

DATE:          October 20, 2003

TO:            Richard La Pointe
               Deputy Assistant Secretary
               Office of Vocational and Adult Education

FROM:          J. Wayne Bynum               /s/ J. Wayne Bynum
               Regional Inspector General for Audit
               Office of Inspector General

SUBJECT:       FINAL AUDIT REPORT
               Kentucky Department of Technical Education’s Management Controls Over
               Perkins III Performance Data Needs Strengthening
               Control Number ED-OIG/A04-D0007


You have been designated as the action official responsible for the resolution of the findings and
recommendations in the attached final report. We have also provided a copy to the auditee and
to your Audit Liaison Officer.

The Office of Inspector General is required to review and approve your proposed Program
Determination Letter (PDL) and the Audit Clearance Document (ACD) before the PDL is
forwarded to the auditee. Please provide these documents for review, electronically if you wish
or by mail, to:

               J. Wayne Bynum

               Regional Inspector General, Region IV 

               U.S. Department of Education        

               Office of Inspector General 

               61 Forsyth Street, Room 18T71 

               Atlanta, GA 30303 


In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the number of audits unresolved. In
addition, any report unresolved after 180 days from the date of issuance will be shown as
overdue in our reports to Congress.
Richard La Pointe                                                                     2



In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions, please contact me at 404-562-6477 or Assistant Regional Inspector
General Mary Allen at 404-562-6465.



Attachment
                      UNITED STATES DEPARTMENT OF EDUCATION

                                   OFFICE OF INSPECTOR GENERAL

                                       61 FORSYTH STREET, ROOM 18T71 

                                           ATLANTA, GEORGIA 30303


       Telephone: (404) 562-6470                                            Fax: (404) 562-6509



                                        October 20, 2003


Emil Jezik
Commissioner
Department of Technical Education
20th Floor Capital Plaza Tower
500 Mero Street
Frankfort, KY 40601


Dear Mr. Jezik:

Enclosed is our final audit report, Control Number ED-OIG/A04-D0007, entitled Kentucky
Department of Technical Education’s Management Controls Over Perkins III Performance Data
Needs Strengthening. This report incorporates the comments you provided in response to the
draft report. If you have any additional comments or information that you believe may have a
bearing on the resolution of this audit, you should send them directly to the following Education
Department official, who will consider them before taking final Departmental action on this
audit:

               Richard La Pointe        

               Deputy Assistant Secretary       

               Office of Vocational and Adult Education 

               Department of Education 

               1990 K Street, NW, Room 7115

               Washington, DC 20006 


It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.
Mr. Emil Jezik                                                                        2


In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                            Sincerely,

                                            /s/ J. Wayne Bynum
                                            J. Wayne Bynum
                                            Regional Inspector General for Audit
                                            Region IV
Enclosure
   Kentucky Department of Technical Education’s Management 

 Controls Over Perkins III Performance Data Needs Strengthening 




                                 FINAL AUDIT REPORT 





                                            ED-OIG/A04-D0007 

                                              October 2003 



Our mission is to promote the efficiency,                        U.S. Department of Education
effectiveness, and integrity of the                              Office of Inspector General
Department’s programs and operations.                            Atlanta, Georgia
  Statements that managerial practices need improvements, as well as
  other conclusions and recommendations in this report, represent the
     opinions of the Office of Inspector General. Determinations of
corrective action to be taken will be made by the appropriate Department
                           of Education officials.


 In accordance with the Freedom of Information Act (5 U.S.C. § 552),
    reports issued by the Office of Inspector General are available to
   members of the press and general public to the extent information
        contained therein is not subject to exemptions in the Act.
                        TABLE OF CONTENTS 


                                          Page
EXECUTIVE SUMMARY……………………………………………………………………..1

BACKGROUND………………………………………………………………………….. ……3

AUDIT RESULTS………………………………………………………………………………5

Finding No. 1 – KDTE’s Management Controls Were Inadequate to Ensure the
                Data Reported to the Department in the 2000-2001 CAR Were
                Complete, Accurate, and Reliable …………………………...………………5
Recommendations…………………………………………………………………..…………...8

Finding No. 2 – Sub-recipients Reported Inaccurate Performance Data to
                KDTE for Program Year 2000-2001…………………….………………....…9
Recommendations…..…………………………………………………………………………..13

Finding No. 3 – KDTE’s System Was Inadequate to Identify Sub-recipients
                That Did Not Meet Program Performance Levels....……………………….14
Recommendations………………………………………………………………………………15

OBJECTIVES, SCOPE, AND METHODOLOGY……..………..……………………..……17

STATEMENT ON MANAGEMENT CONTROLS…………………………………….……18

Attachment A: Definitions of KDTE’s Performance Measures……..…….……….……….20

Attachment B: Glossary…….…………………………………………………………………21

Attachment C: KDTE’s Written Response to the Draft Report…….…….……….……….22




ED-OIG/A04-D0007            FINAL REPORT                         Page i
                             EXECUTIVE SUMMARY 


The purpose of this audit was to assess management controls at the Kentucky Department of
Technical Education (KDTE) and Perkins sub-recipient agencies (sub-recipients) to ensure that
performance data reported to the U.S. Department of Education (Department) for the Carl D.
Perkins Vocational and Technology Education Act of 1998 (Perkins III), Public Law 105-332,
for the 2000-2001 program year were complete, accurate, and reliable. We evaluated the
controls at KDTE, and at three sub-recipients including a high school, an Area Technical Center
(ATC), and a post-secondary institution. Kentucky was awarded $19.8 million in Perkins III
grant funds for program year 2000-2001. Kentucky also received a $3 million Workforce
Investment Act incentive award for exceeding program performance levels in program year
2000-2001 from the U.S. Department of Labor.

While KDTE had a process and controls in place to collect and report Perkins III performance
data, we found that the controls were inadequate to ensure that the data submitted to the
Department were complete, accurate, and reliable. Controls at the three sub-recipient agencies
we visited were also inadequate to ensure that complete, accurate, and reliable data were reported
to KDTE. As such, KDTE needed to strengthen controls over the Perkins III data collection
process. Specifically, our audit disclosed that:

   • 	 KDTE did not report complete data, used previous year’s data, and used estimates to
       report on program performance to the Department;
   • 	 Sub-recipients reported inaccurate performance data to KDTE for program year 2000-
       2001; and
   • 	 KDTE’s system was inadequate to identify sub-recipients that did not meet program
       performance levels.

Among other recommendations, we recommend that the Assistant Secretary for Vocational and
Adult Education require KDTE to —

   • 	 Establish controls to ensure that sub-recipient agencies meet Perkins III performance
       reporting requirements and submit accurate performance data, as required;
   • 	 Ensure that the data collection system allows sub-recipient agencies to input all required
       data;
   • 	 Disclose the use of estimates, previous year’s data, and any other departure from

       complete, accurate, and reliable data in the Consolidated Annual Report (CAR); 

   • 	 Monitor sub-recipient agencies to evaluate the progress made for improving performance
       data quality;
   • 	 Ensure that the current database system captures all of the Perkins performance data
       reporting requirements; and
   • 	 Ensure that the required improvement plan process is implemented for all sub-recipient
       agencies that do not meet the established program performance levels.




ED-OIG/A04-D0007                    FINAL REPORT 	                                 Page 1 of 30
KDTE provided written comments to the draft report. In its response, a copy of which is
included as Attachment C, KDTE indicated general concurrence with the findings and
recommendations contained in the report. For each recommendation, KDTE provided details
on its efforts to implement management controls and activities to ensure that all sub-recipients
submit performance data as required.




ED-OIG/A04-D0007                    FINAL REPORT                                    Page 2 of 30
                                     BACKGROUND 


General Perkins III Information

The Carl D. Perkins Vocational and Technology Education Act of 1998 (Perkins III), Public
Law 105-332, was signed into law on October 31, 1998, and is administered by the U.S.
Department of Education, Office of Vocational and Adult Education (OVAE). The purpose of
this Act is to develop more fully the academic, vocational, and technical skills of secondary
students and postsecondary students who elect to enroll in vocational and technical education
programs.

Perkins III established a rigorous State performance accountability system to assess the
effectiveness of the State in achieving progress in vocational and technical education and to
optimize the return of investment on Federal funds in vocational and technical education
activities. Perkins III requires each State to identify specific measures (sub-indicators) and
targeted levels of performance in its State plan, and to track its achievements in four specific
outcome areas:
     • academic and technical attainment,
     • credential attainment,
     • skill preparation for postsecondary education, and
     • non-traditional participation and completion.

States report on these established measures and levels of performance annually in the
Department’s Consolidated Annual Report (CAR).

Kentucky State Perkins III Program Administration

Kentucky was awarded $19.8 million in Perkins III grant funds for program year 2000-2001.
Kentucky also received a $3 million Workforce Investment Act incentive award for exceeding
program performance levels in program year 2000-2001 from the U.S. Department of Labor.

In the State of Kentucky, the Perkins III program is administered by the Kentucky Department
for Technical Education (KDTE). KDTE is part of the State’s Workforce Development Cabinet.
The Federal Programs Branch in KDTE’s Division of Administrative Services is responsible for
carrying out the provisions of Perkins III, as approved by the KDTE Commissioner. KDTE
provided the funding allocations for the Local Educational Agencies (LEAs) and reviewed and
approved the applications from the ATCs and post-secondary educational institutions that have
vocational programs. The administrative function includes the oversight of the funds to assure
that the intent of the law is being met by the entities receiving Perkins III funding. KDTE is also
responsible for preparing and submitting the CAR to the Department.

Kentucky utilized a consolidated application process, where each LEA submitted one application
for all of its Federal programs including the Perkins III program to the Kentucky Department of


ED-OIG/A04-D0007                     FINAL REPORT                                     Page 3 of 30
Education (KDE). These plans contain the LEA’s details of the number of schools and type of
Perkins III programs funded at the schools. KDTE entered into a Memorandum of Agreement
with KDE to review, approve, monitor, evaluate, and provide technical assistance for the
Perkins III program at the LEAs.

Preparation of the 2000-2001 CAR

In July 1999, KDTE implemented the Technical Education Database System (TEDS), a
computer mainframe-based application. During program year 2000-2001, KDTE used TEDS
to capture Perkins III student data for all technical programs taught in Kentucky. Universities,
community and technical colleges, State operated ATCs, locally operated Area Vocational
Educational Centers (AVEC), middle schools, and other entities were required to report
Perkins III data through TEDS.

Although TEDS was used to capture and maintain Perkins data, KDTE used several data sources
to prepare the Perkins III 2000-2001 program year CAR. For the 2000-2001 CAR, KDTE
compiled the Perkins III performance data into a series of electronic spreadsheets. KDTE pulled
some of the data from TEDS, manually consolidated some data and used reports prepared by
KDE to complete the spreadsheets. We compared the data KDTE reported for selected sub-
indicators in the 2000-2001 CAR with the electronic spreadsheets KDTE used to prepare the
CAR. We also used KDTE’s spreadsheets to evaluate the accuracy and completeness of the
Perkins III performance data reported by KDTE.

KDTE no longer uses TEDS for agencies to report Perkins III performance data. In July 2002,
KDTE implemented a new Internet based application called WebTEDS. KDTE and sub-
recipient officials stated that WebTEDS is a great improvement over TEDS and that they do not
experience the problems with the new system that they did with TEDS. Since WebTEDS was
implemented outside of our audit period, we did not perform any tests on the new system or the
performance data submitted through the new system.




ED-OIG/A04-D0007                    FINAL REPORT                                    Page 4 of 30
                                   AUDIT RESULTS 


Our audit objective was to assess management controls at KDTE and sub-recipient agencies to
ensure that performance data reported to the Department for Perkins III for the 2000-2001
program year were complete, accurate, and reliable. We identified inadequate management
controls at KDTE over reporting Perkins III performance data to the Department and found that
sub-recipients had inadequate controls over reporting performance data to KDTE. We also
found that KDTE’s system was inadequate to identify all sub-recipients that did not meet
program performance levels.

Finding 1 - KDTE’s Management Controls Were Inadequate to Ensure the
            Data Reported to the Department in the 2000-2001 CAR Were
            Complete, Accurate, and Reliable
KDTE’s management controls over reporting Perkins III performance data were inadequate to
ensure that the data submitted to the Department were complete, accurate, and reliable. We
found that KDTE did not report complete data to the Department for program year 2000-2001,
used the previous year’s data to estimate academic attainment for secondary schools in the 2000-
2001 CAR, and used estimates to report on placement for secondary schools in the 2000-2001
CAR. As a result, the data reported to the Department were not complete, accurate, and reliable.

Perkins III, Part B, § 123(b) (1998) states that “[e]ach eligible agency shall evaluate annually,
using the State adjusted levels of performance, the vocational and technical education activities
of each eligible recipient receiving funds under this title.”

Perkins III, Part B, § 122(c)(20) (1998), requires the State plan to include information that
“describes how the eligible agency will ensure that the data reported to the eligible agency from
local educational agencies and eligible institutions under this title and the data the eligible
agency reports to the Secretary are complete, accurate, and reliable.”

OVAE’s Core Indicator Framework, dated January 2000, established the data quality criteria
below for reporting performance measures. This framework is the basis for States to report
Perkins III performance data to the Department.

       Data Quality Criteria

       Validity – The degree to which the performance measures approach directly
       and fully measure the student outcomes at an appropriate interval. Directly
       measures what they are supposed to measure.

       Reliability – Requires states to use effective management information systems
       for insuring data quality.




ED-OIG/A04-D0007                    FINAL REPORT                                    Page 5 of 30
In addition, KDTE’s Technical Education Policies and Procedures Manual covering the
Perkins III program year 2000-2001 required eligible recipients to annually evaluate their
measures. According to the Manual, each eligible institution is to annually complete the Core
Standards and Measures.

KDTE did not report complete data in the CAR

KDTE did not report complete Perkins III performance data for 15 percent of its Perkins III
sub-recipients for program year 2000-2001. Also, KDTE did not disclose this information in the
CAR. As shown in the Table 1.1, 50 of the 341 agencies did not submit performance data or
submitted incomplete data to KDTE. KDTE did not have procedures in place to verify that all
sub-recipient agencies submitted performance data.

       Table 1.1 - Sub-recipients that did not submit any data or submitted incomplete
                   performance data to KDTE
                                                                                      Number
                                                                    Number         Reporting No or
          Perkins III                            Number of         Reporting         Incomplete
          Sub-recipients                         Recipients          Data*             Data**

          Secondary Schools                           210              177                  33

          Locally Operated Area
          Vocational Educational Centers               26               23                   3

          State Operated Area
          Technical Centers                            52               46                   6

          Post-Secondary Institutions                  53               45                   8

          Total                                       341              291              50 (15 %)
         *The KDTE Branch Manager for Federal Programs stated that the secondary schools locally
         operated area vocational educational centers did not report placement data to KDTE for program
         year 2000-2001.
         **33 secondary schools did not report any performance data; 3 AVECs did not report
          any performance data; 5 ATCs did not report completion data and 1 did not report placement
          data; and 7 postsecondary institutions did not report completion data and 2 institutions did not report
          placement data (including one institution that did not report both completion and placement data).

Some LEAs had both a Perkins secondary program and an AVEC. The Director of Career and
Technical Education stated that LEAs included their Perkins funding information in their
consolidated plan submitted to KDE. Although KDE reviewed and approved the LEA
consolidated plans, it did not provide KDTE with a list of schools with funded Perkins programs.
Even though the consolidated plans were available through KDE’s website, the Branch Manager
for the Federal Perkins Program stated that they did not review the plans. Our review of the
consolidated plans showed that most plans listed the amount of Perkins funds designated for each
school. Others only provided the total funding amount. However, there was sufficient
information to identify which LEAs operated a Perkins III program.



ED-OIG/A04-D0007                         FINAL REPORT                                               Page 6 of 30
The ATCs and post-secondary institutions submitted their Perkins applications directly to KDTE
for review and approval. During the audit period, they were required to submit their
performance data through TEDS. KDTE officials offered no explanation as to why some of
these entities did not report performance data, other than some had difficulties entering data
into TEDS.

In its Perkins III State plan, KDTE stated that student data would be collected for all
vocational/technical education students in Kentucky using TEDS. It was the sub-recipient’s
responsibility to submit its Perkins data using TEDS. KDTE’s Branch Manager for Federal
Programs, who is mainly responsible for preparing the CAR, said the LEAs decided which
secondary schools received funds. The LEAs did not communicate directly with the Branch
Manager as to which individual schools received funds. This information was contained in the
LEAs consolidated plan. KDTE did not compare the funding information in the LEA
consolidated plans to TEDS to ensure that all schools reported performance data. KDTE did not
enforce the reporting requirements.

KDTE used previous year’s data to estimate academic attainment reported for secondary
schools

KDTE used 1999-2000 graduation data to report on academic attainment for secondary schools
in the 2000-2001 CAR. Also, KDTE did not disclose the use of the 1999-2000 data in the 2000-
2001 CAR. KDTE’s Branch Manager of Federal Programs and the Administrative Consultant,
who is responsible for providing TEDS technical assistance to sub-recipients, said that TEDS did
not have a data field to capture graduation data in program year 2000-2001. As a result, sub-
recipients were not able to enter graduation data into TEDS.

As an alternative, KDTE used a combination of 1999-2000 data from KDE’s Transition to Adult
Life Report and from TEDS’ data field “termination status” to estimate the secondary academic
attainment reported in the 2000-2001 CAR. KDTE did not maintain supporting documentation
for its estimates.

The KDTE Branch Manager for Federal Programs stated that the Department granted the agency
permission to use 1999-2000 data; however, KDTE did not have written documentation to
support the approval. The OVAE Accountability and Performance Specialist for Kentucky
stated that it is likely that KDTE received verbal permission from a former program director at
OVAE to use 1999-2000 data and, therefore, did not have any supporting documentation.

We found no individual listing of vocational students who graduated during program years
1999-2000 or 2000-2001 in our review of the summary data KDTE used to develop the 2000-
2001 CAR. For the 2000-2001 CAR, KDTE reported 43 vocational graduates for the secondary
sub-recipient we visited. While at the sub-recipient, we attempted to verify the number reported
by KDTE. The sub-recipient did not maintain documentation to identify vocational students who
graduated; therefore, we could not verify the validity of the estimate. Consequently, KDTE did
not provide secondary academic attainment data to the Department that were reliable or relevant
to the reporting program year.




ED-OIG/A04-D0007                   FINAL REPORT                                   Page 7 of 30
KDTE used estimates to report on placement for secondary schools

KDTE used estimates, not specific student data, to report on placement for secondary schools in
the 2000-2001 CAR. KDTE did not disclose the use of estimates in the CAR. KDTE did not
use data directly obtained from the sub-recipient level for placement data and did not enforce
their reporting requirements. The secondary sub-recipient we visited did not report any
placement in TEDS. According to the Branch Manager for Federal Programs and the
Administrative Consultant, secondary schools were required to submit placement data through
TEDS; however, they did not always do so.

KDTE used a combination of TEDS data from the “completers” data-field and percentages from
KDE’s Transition to Adult Life Report that contained student placement data by individual
school to report on placement in the CAR. KDE’s report showed the percentages of students
who chose a certain career path, such as military service, college, or employment. To arrive at
the placement data reported in the CAR, KDTE applied the student placement percentages from
KDE’s report to the program completers data shown in TEDS. The KDTE Branch Manager for
Federal Programs could not provide any support for the figures in KDE's report or a listing of the
placement data from TEDS that they used.

Overall, KDTE’s management controls were inadequate to ensure that the sub-recipient agencies
that were required to report placement data did so. KDTE did not verify that sub-recipient
agencies submitted performance data. KDTE did not have a checks and balances system in place
to determine whether all Perkins sub-recipients submitted performance data. As a result, the
Department cannot be assured that the data KDTE submitted for secondary placement were
complete, accurate, and reliable.

RECOMMENDATIONS
We recommend that the Assistant Secretary for Vocational and Adult Education require KDTE
to:

1.1 	 Establish controls to ensure that all sub-recipients meet Perkins III performance reporting
      requirements and submit performance data, as required.

1.2 	 Ensure that the data collection system allows sub-recipients to input all required data that
      pertain to the applicable program year.

1.3 	 Disclose the use of estimates, previous year’s data, and any other data quality issues that
      affect the completeness, accuracy, and reliability of the data in the CAR.

KDTE RESPONSE

In its written response to the draft report (see Attachment C), KDTE stated that because of the
problems that it experienced with the first generation TEDS (Technical Education Data System),
it developed a new WEB TEDS. The new WEB TEDS is operational. KDTE also stated that
besides the new web system, a variety of reports needed for program evaluation and



ED-OIG/A04-D0007                     FINAL REPORT 	                                  Page 8 of 30
accountability were identified. These reports will be revised and new reports developed as
needed.

KDTE further stated that Perkins III funds would not be allocated to institutions/ local schools
districts that do not submit performance data, as required. KDTE stated that it would run
monthly reports for each school to verify that appropriate data is entered and will ask each
agency that it has a Memorandum of Agreement (MOA) with to monitor data progress with its
respective schools on a monthly basis. In addition, it will provide technical assistance and
on-site visits to its sub-recipients, where needed, and continue to hold WEB TEDS training
sessions with its sub-recipients. Further, KDTE agreed to report in its Consolidated Annual
Report (CAR) any circumstances that may affect the completeness, accuracy or reliability of the
data.

After each recommendation, KDTE provided details on the controls it has established to address
the recommendation. For recommendation number 1.2, KDTE stated that the data system has
been revised to include all the data needed for the Annual Consolidated Report with the
exception of the CATS (Commonwealth Accountability and Testing System) English test score
to measure the academic attainment for students who attend the area technology centers. Efforts
have been made to obtain the data ever since the U. S. Department of Education accepted the
English test score of seniors as the measure of academic attainment. However, the Kentucky
Department of Education continues to use the privacy of students as the reason for not releasing
the aggregate data by school to the state operated area technology centers. Also, the EDGAR
regulations that state the information may be released without permission if the data is needed to
report to the Federal government or the State government has been shared with the Division of
Career and Technical Education. However, the Department of Technical Education does not
have the data to date.

OIG COMMENTS

KDTE indicated general concurrence with our finding and recommendations. We appreciate
KDTE’s efforts to implement management controls and activities to ensure that all sub-recipients
submit performance data as required; data quality issues affecting the completeness, accuracy
and reliability of the data are disclosed; and its data collection system allows all sub-recipients to
enter all pertinent data. The improvement activities described in KDTE’s response should help
to ensure that the data reported to the Department in future CARs are complete, accurate, and
reliable. However, KDTE needs to continue its efforts to obtain the appropriate data needed to
annually report on academic attainment or find an alternative data source or measurement
approach to evaluate its progress in achieving the prescribed level of performance for this
sub-indicator.

Finding 2 -	 Sub-recipients Reported Inaccurate Performance Data to KDTE
             for Program Year 2000-2001

Sub-recipients did not always enter accurate student data into TEDS. Even though KDTE
provided sub-recipients with a TEDS manual and some technical assistance and training, the data
reported to KDTE were not always accurate. The percentage of errors found in the data



ED-OIG/A04-D0007                     FINAL REPORT 	                                    Page 9 of 30
submitted to KDTE by the secondary school, the ATC, and postsecondary institution we visited
ranged from zero to 100 percent, zero to 71 percent, and zero to 80 percent, respectively. The
sub-recipient agencies’ controls over the data were inadequate.

Perkins III, Part B, § 122(c)(20) (1998) requires States to include information that “describes
how the eligible agency will ensure that the data reported to the eligible agency from local
educational agencies and eligible institutions under this title and the data the eligible agency
reports to the Secretary are complete, accurate, and reliable.”

The majority of the errors we found at the sub-recipient level were the result of improperly coded
termination statuses and dates. The termination statuses designate students who completed, left,
or transferred out of a Perkins III program. We also found errors that resulted from sub-recipient
staff input errors. Finally, we could not verify some data such as student names, social security
numbers, race, gender, and enrollment dates back to supporting documentation.

The post-secondary institution reported incorrect termination statuses and placement data. The
termination statuses for 17 of the 75 students sampled were inaccurate. We found that 16 of the
75 (21 percent) students were reported as completers; however, they did not have sufficient
credits to meet KDTE’s requirement for program completion. One student was incorrectly
identified as a transfer. We also found that the termination dates entered for the 16 students were
incorrectly entered or not entered into TEDS. The termination dates had a direct effect on the
appropriate program year the student actually completed the program. Under KDTE’s
accountability system, vocational completers were those students who completed all of the
necessary courses and earned a certificate of completion in a designated program. In addition,
the postsecondary institution could not provide any supporting documentation for 8 of the 10
(80 percent) students for whom placement information was reported to KDTE.

The ATC and secondary school sub-recipients could not provide supporting documentation for
students reported as disabled and academically or economically disadvantaged. The ATC could
not provide supporting documentation for 3 of the 10 (30 percent) students reported as disabled
and 14 of the 21 (67 percent) students reported as academically or economically disadvantaged.
The secondary school could not provide supporting documentation for the four students reported
as academically or economically disadvantaged.

The sub-recipient agencies did not have adequate controls over reporting Perkins III performance
data to KDTE. One sub-recipient’s staff relied on verbal confirmations from students to
determine termination statues instead of reviewing academic transcripts. Two of the sub-
recipients did not maintain sufficient supporting documentation. There was no supervisory
review of the data submitted to KDTE at any of the three sub-recipients visited.

Although KDTE provided the sub-recipients with TEDS manuals and other guidance, KDTE did
not conduct on-site monitoring visits at the sub-recipients. An Administrative Consultant with
KDTE said that visual checks were performed on the data sub-recipients submitted through
TEDS for accuracy and completeness; however, this was not performed on a consistent basis.

We found numerous errors at the three sub-recipients visited. See Tables 2.1, 2.2, and 2.3 for
details. Not that not all of the students in our sample were reported as disabled or disadvantaged.


ED-OIG/A04-D0007                     FINAL REPORT                                   Page 10 of 30
We verified only those students identified in the category. See Appendix A for the definitions of
KDTE’s performance measures.

                Table 2.1 - Errors found in the secondary school sample for sub-indicators
                            1S1, 1S2, and 2S1*
                                                          Number of
                Data Field                 Sample Size      Errors       Error Rate
               Name                                   75             9            12%
               SSN                                    75             8            11%
               DOB                                    75             5             7%
               Enroll Date                            75           751           100%
               Program                                75           752           100%
               Race                                   75             6             8%
               Gender                                 75             5             7%
                                                                      3
               Term Date                              75           75            100%
               Termination Status                     75            14            19%
               Objective                              75             0            None
               Education Level                        75             6             8%
               Disability                              0             0            None
               Disadvantage
               (academic or economic)                  4             4           100%
               Special Population*                     0             0             N/A
               *1S1 = Secondary Academic Attainment; 1S2 = Secondary Vocational & Technical Skill
                Attainment; 2S1 = Secondary Completion




1
  The school was unable to provide supporting documentation for the students’ enrollment date field; therefore, all
of the students in the sample are shown as having errors in that field.
2
  Teachers at the school determined which program they thought students should be categorized, but the students did
not declare in which program they were enrolled. Further, the school could not provide any supporting
documentation for the vocational programs in which students were enrolled.
3
  KDTE required sub-recipients to enter the date a student exits the program. However, the school did not enter any
termination dates in TEDS for program year 2000-2001.


ED-OIG/A04-D0007                          FINAL REPORT                                          Page 11 of 30
        Table 2.2 - Errors found in the ATC sample for sub-indicators 1S1, 1S2, and 2S1*
                                                  Number of
          Data Field                 Sample Size     Errors       Error Rate
         Name                                  75             1              1%
         SSN                                   75             3              4%
         DOB                                   75             5              7%
         Enroll Date                           75            43             57%
         Program                               75             3              4%
         Race                                  75             2              3%
         Gender                                75             0            None
         Term Date                             75            53             71%
         Termination Status                    75            39             52%
         Objective                             75             1              1%
         Education Level                       75             9             12%
         Disability*                           10             3             30%
         Disadvantage*
         (academic or economic)                21            14             67%
         Special Population*                    4             1             25%
          *1S1 = Secondary Academic Attainment; 1S2 = Secondary Vocational & Technical Skill
           Attainment; 2S1 = Secondary Completion



          Table 2.3 - Errors found in the Post-secondary sample for sub-indicators
                      1P1, 1P2, 2P1, and 3P1*
                                                    Number of
          Data Field                Sample Size      Errors         Error Rate
         Name                                  75              2              3%
         SSN                                   75              0            None
         DOB                                   75              4              5%
         Enroll Date                           75             10             13%
         Program                               75              1              1%
         Race                                  75              0            None
         Gender                                75              2              3%
         Term Date                             75             48             64%
         Term Status                           75             17             23%
         Objective                             75              0            None
         Education Level                       75              0            None
         Disability*                            1              0            None
         Disadvantage*
         (academic or economic)                14              0            None
         Special Population*                    2              0            None
         Placement*                            10              8             80%
          *1P1 = Postsecondary Academic Attainment; 1P2 = Postsecondary Vocational & Technical
           Skill Attainment; 2P1 = Postsecondary Completion; 3P1 = Postsecondary Placement




ED-OIG/A04-D0007                   FINAL REPORT                                      Page 12 of 30
As a result of the errors found at the sub-recipients we visited, we concluded that the data KDTE
submitted to the Department were not always accurate. Consequently, the data did not provide
an accurate representation to the Department in order to determine whether or not the State met
its agreed upon performance levels involving the affected sub-indicators.

RECOMMENDATIONS
We recommend that the Assistant Secretary for Vocational and Adult Education require KDTE
to:

2.1 E
    	 stablish controls, including data review, to ensure that sub-recipients submit accurate
    student performance data.

2.2   	Monitor sub-recipients to evaluate the progress made for improving performance data
      quality.

2.3 	 Disclose any significant problems or difficulties in reporting complete, accurate, and
      reliable data to the Department along with the corrective action taken to alleviate these
      problems in future CARs.

KDTE RESPONSE

In its written response, KDTE stated that monthly reviews of data entered into WEB-TEDS will
be conducted by running reports for each institution to identify schools that have data missing.
Schools that lack data will be reminded that the data needs to entered, and they will be asked if
there is a problem with the system. In addition, periodic visits to schools will be made to audit
the data entered and the source documents used to enter the data. KDTE said that it would
distribute a list of suggested source documents to each staff person responsible for entering data
into the system. In addition, KDTE stated that other state agency personnel delegated with
authority to operate and monitor schools receiving federal funds will evaluate the progress made
in improving a school’s performance quality. Each agency with an MOA will forward their
reports to the Department for Technical Education. The responsibility for these visits will be
included in the Memorandum of Agreement. KDTE further stated that it would disclose any
problems it may experience with data quality along with any explanation of the corrective action
taken.

KDTE also stated that it believes that the statement in the report regarding termination dates
having a direct effect on the appropriate program year the student actually completed the
program was a miscommunication during the visit. The date the student exited the program has
nothing to do with the program year.

OIG COMMENTS

KDTE indicated general concurrence with the finding and recommendations. We appreciate its
efforts to implement management controls and activities to ensure that sub-recipients report
accurate program performance data. The actions KDTE described in its response, if



ED-OIG/A04-D0007                     FINAL REPORT 	                                 Page 13 of 30
implemented, should help ensure that sub-recipients submit accurate performance data to KDTE
in future program years.

It is our understanding that termination dates are entered into the database for students who are
identified as completers, leavers, and transfers. We also understand that termination dates are
not entered into the system for students continuing in the programs and that system users are
allowed to adjust data entries if a student’s status changes. Our review of the academic
transcripts for the 16 students referenced in the audit report showed that these students were
incorrectly identified as program completers because the termination dates were either incorrect
or not entered into the system. The termination dates should directly correspond with the
termination statuses to reflect the appropriate program year a student actually completes, leaves
or transfers out of a program. If not there is a risk that the data will be misstated or overstated.
We suggest that KDTE communicate with its sub-recipients, the importance of entering the
correct termination dates and statuses.

Finding 3 -	 KDTE’s System Was Inadequate to Identify Sub-recipients that
             Did Not Meet Program Performance Levels

KDTE’s system was inadequate to identify all sub-recipients that did not meet program
performance levels. Fourteen of 52 ATCs (27 percent) did not meet the established performance
level for secondary vocational and technical skill attainment. However, KDTE did not require
any of the ATCs to submit improvement plans, as required in the Perkins III Act. In addition, for
secondary schools, KDE did not base its program evaluation on TEDS data or any of the data
KDTE reported to the Department. As a result, KDTE did not implement an effective
improvement plan process for those sub-recipients who did not meet the State-established levels
of program performance for selected sub-indicators, as required in the Act.

Perkins III, Part B, § 122(c)(20) (1998) requires States to “include information that describes
how the eligible agency will ensure that the data reported to the eligible agency from local
educational agencies and eligible institutions under this title and the data the eligible agency
reports to the Secretary are complete, accurate, and reliable.”

Further, according to the Perkins III Act, Part B, § 123(c)(1)(A-B) (1998):

       If, after reviewing the evaluation, the eligible agency determines that an
       eligible recipient is not making substantial progress in achieving the State
       adjusted levels of performance, the eligible agency shall—

       (A) conduct an assessment of the educational needs that the eligible recipient
           shall address to overcome local performance deficiencies;

       (B) enter into an improvement plan based on the results of the assessment,
           which plan shall include instructional and other programmatic innovations
           of demonstrated effectiveness, and where necessary, strategies for
           appropriate staffing and staff development. . . . .




ED-OIG/A04-D0007                     FINAL REPORT 	                                   Page 14 of 30
KDTE’s Technical Education Policies and Procedures Manual covering the Perkins III program
year 2000-2001 required institutions that had one or more standards with a Does Not Meet
response to complete an improvement plan developed jointly by administrators and technical and
academic instructors.

KDTE was responsible for requiring all ATCs and postsecondary institutions that did not meet
the established program performance levels to submit improvement plans. However, KDTE did
not always implement the improvement plan process. For example, using KDTE’s summary
electronic spreadsheets, we found that 14 of the 52 ATCs did not meet the established program
performance level for secondary vocational and technical skill attainment. KDTE did not require
any of the ATCs to submit improvement plans for program year 2000-2001.

Based on the Memorandum of Agreement established between KDTE and KDE, KDE is
responsible for facilitating annual Perkins program evaluations for the secondary schools.
According to the Director of KDE’s Division of Career and Technical Education, secondary
schools submitted program improvement activities in their annual consolidated plans. However,
KDE did not base Perkins III program evaluation and improvement on the data captured in
TEDS or reported by KDTE to the Department.

Two of KDTE’s Administrative Consultants, who work closely with the Perkins III program, and
KDE’s Director of the Division of Career and Technical Education, stated that the reason they
did not have the improvement plans was because of problems with TEDS. The system did not
consistently retain previously entered data and generate summary reports. The officials and staff
stated that they were aware that the TEDS data did not always produce reliable measurements.
The Database Analyst and School Principal at two of the sub-recipients visited stated that they
experienced the same types of problems with TEDS.

The inadequacies of KDTE’s database system resulted in the State agency’s inability to
effectively determine whether or not its sub-recipients were making substantial progress in
achieving the State’s adjusted levels of performance.

In July 2002, KDTE implemented a new system, WebTEDS (Internet based application). KDTE
and sub-recipient officials said the new system is a great improvement over the TEDS.

RECOMMENDATIONS
We recommend that the Assistant Secretary for Vocational and Adult Education require KDTE
to:

3.1 	 Ensure that the current database system captures all of the Perkins performance data
      reporting requirements.

3.2 	 Ensure that the required improvement plan process is implemented for all sub-recipients
      that do not meet the established program performance levels.




ED-OIG/A04-D0007                    FINAL REPORT 	                                Page 15 of 30
KDTE RESPONSE

KDTE stated that its staff has worked with programmers to develop the web-based system that
includes more user-friendly menus and allows users to easily prepare summary reports. In
addition, KDTE will begin on October 1, implementing on-site data monitoring visits to verify
that the data is being entered accurately and timely, and to also provide technical assistance.

KDTE said that it plans to develop a new program to produce an accountability report for each
school in the system. This report will be based on the Department of Education’s performance
indicators and will include program performance, as well as overall institutional performance in
meeting the performance indicators. KDTE stated that schools will be required to submit a plan
for improving their performance levels and the local applications for the next school year must
reflect how the funds will be used to improve programs that did not meet the performance
indicators and plans to increase student achievement. In addition, schools that do not submit
their improvement plans will risk losing Perkins funding.

OIG COMMENTS

KDTE indicated general concurrence with the finding and recommendations. The actions KDTE
described in its response, if implemented, should help ensure that KDTE has an adequate system
in place to identify all sub-recipients that do not meet the prescribed program performance levels
in future program years.




ED-OIG/A04-D0007                    FINAL REPORT                                  Page 16 of 30
              OBJECTIVE, SCOPE, AND METHODOLOGY 


The audit objective was to assess the management controls established at KDTE and at
sub-recipient agencies to ensure that the Perkins III performance data reported to the Department
were complete, accurate, and reliable. The review focused on the quality of the data submitted
by the sub-recipient agencies to KDTE and how KDTE collected and compiled that data for
annual reporting to the Department.

To accomplish our objective, we performed the following:

   • 	 Reviewed the Carl D. Perkins Vocational and Technological Education Act of 1998,
       Public law 105-332, October 31, 1998; OVAE’s Core Indicator Framework, January
       2000; and the State of Kentucky’s A-133 audit report for the year ended June 30, 2001.
   • 	 Contacted, interviewed, and obtained Perkins III program information from KDTE and
       KDE staff and officials in Frankfort, Kentucky.
   • 	 Conducted site visits to three sub-recipients (high school, area technology center, and
       postsecondary institution).
   • 	 Reviewed student files, academic transcripts, and other source documentation to 

       determine whether the data reported on selected sub-indicators for the three 

       sub-recipients visited were complete, accurate, and reliable. 

   • 	 Assessed management controls over Perkins III performance data at KDTE and the three
       sub-recipients visited.

We performed audit work at KDTE and KDE. In addition, we performed audit tests at three
sub-recipients and reviewed the data collection and reporting processes related to the Perkins III
performance data. We based our selection of sub-recipients on school enrollments, site location,
and the availability of performance data submitted by sub-recipients to test. We selected one
secondary, one ATC, and one post-secondary institution. We conducted our fieldwork at KDTE
and KDE in Frankfort, KY; and Lone Oak High School, Paducah ATC, and West Kentucky
Technical College in Paducah, KY.

We sampled and reviewed KDTE’s performance data for eight sub-indicators to determine if the
data were complete, accurate, and reliable. As part of our audit, we reviewed the following
KDTE performance measure sub-indicators:

 • 	 Secondary Academic Attainment (1S1)          •   Postsecondary Academic Attainment (1P1)
 • 	 Secondary Vocational & Technical Skill       •   Postsecondary Vocational & Technical Skill
     Attainment (1S2)                                 Attainment (1P2)
 • 	 Secondary Completion (2S1)                   •   Postsecondary Completion (2P1)
 • 	 Secondary Placement (3S1)                    •   Postsecondary Placement (3P1)

For our audit, we did not pull our samples directly from KDTE’s TEDS system. KDTE could
not always establish what detailed TEDS data it used to compile the summary Perkins data.
KDTE did not maintain a complete audit trail from TEDS to the electronic spreadsheets used to


ED-OIG/A04-D0007                    FINAL REPORT 	                                Page 17 of 30
prepare the CAR. In two instances, KDTE used data from sources other than TEDS. We
compared the data KDTE reported for selected sub-indicators in the 2000-2001 CAR with the
electronic spreadsheets KDTE used to prepare the CAR. We also used KDTE’s electronic
spreadsheets to select a sample of data to test for reliability at the sub-recipient level.

For our detailed tests, we selected a random sample of 75 students from each sub-recipient to
determine whether the data reported in the CAR were complete, accurate, and reliable. The
student populations for the three sub-recipients visited (secondary school, ATC, and
postsecondary institution) were 199, 108, and 771, respectively.

Our audit covered the performance data for Perkins III funds awarded during program year 2000-
2001 (July 1, 2000, through June 30, 2001). An exit conference was held with KDTE officials
on July 9, 2003.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.


            STATEMENT ON MANAGEMENT CONTROLS


We have made a study and evaluation of the management control structure of KDTE’s
accountability system over Perkins III performance data in effect during program year 2000-
2001. For the purpose of this report, we assessed and classified the significant management
control structure into the following categories: coding and entering Perkins III performance data,
receipt of Perkins III performance data, data review and edit process, and reporting Perkins III
performance data.

The management of KDTE is responsible for establishing and maintaining a management control
structure. In fulfilling this responsibility, estimates and judgments by management are required
to assess the expected benefits and related costs of control procedures. The objectives of the
management control structure are to provide management with reasonable, but not absolute,
assurance that program performance is properly assessed and measured and that the transactions
are executed in accordance with management’s authorization and recorded properly, so as to
permit effective and efficient operations.

Because of inherent limitations in any management control structure, errors or irregularities may
occur and not be detected. Also, projection of any evaluation of the system to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions, or
that the degree of compliance with the procedures may deteriorate.

Our assessment disclosed the following conditions in the management control structure of KDTE
in effect for program year 2000-2001, which, in our opinion, result in more than a relatively low
risk that errors or irregularities in amounts that would be material in relation to reported
information may occur and not be detected within a timely period:




ED-OIG/A04-D0007                    FINAL REPORT                                  Page 18 of 30
• 	 KDTE controls were inadequate to ensure that Perkins III data submitted to the Department
    of Education were complete, accurate, and reliable;
• 	 Controls at the sub-recipient agencies we visited were inadequate to ensure that complete,
    accurate, and reliable data were reported to KDTE;
• 	 KDTE did not report complete data, used previous year’s data, and used estimates to report
    on program performance to the Department;
• 	 Sub-recipients reported inaccurate performance data to KDTE for program year 2000-2001;
    and
• 	 KDTE’s system was inadequate to identify sub-recipients that did not meet program
    performance levels.

These weaknesses and their affects are fully discussed in the AUDIT RESULTS section of this
report.




ED-OIG/A04-D0007                   FINAL REPORT 	                               Page 19 of 30
Attachment A – Definitions of KDTE’s Performance Measures for Program
Year 2000-2001

Core Indicator 1 - Academic and Technical Skill Attainment
      Measure                 Approach                Numerator +                Denominator+
        1S1            High School Graduation    1999-2000 Vocational       1999-2000 Vocational
                                                 graduates                  graduates plus program
                                                                            leavers
        1S2            Program Completion        2000-2001 Program          2000-2001 Program
                                                 completers                 leavers
        1P1            Grade Point Average and   2000-2001 Program          2000-2001 Program
                       Program Completion        completers with a 2.0      completers and leavers
                                                 GPA and above
        1P2            Grade Point Average and   2000-2001 Program          Program completers and
                       Program Completion        completers with a 2.0      leavers
                                                 GPA and above
Core Indicator 2 – Completion
      Measure                  Approach               Numerator +                 Denominator+
        2S1            State/ Local              2000-2001 Vocational       2000-2001 Vocational
                       Administrative Data       completer graduates        student graduates
                                                                            (completers plus leavers
                                                                            plus transfers)
        2P1            Grade Point Average and   2000-2001 Program          2000-2001 Completers
                       Program Completion        completers with a 2.0      and leavers
                                                 Grade Point Average or
                                                 above
Core Indicator 3 - Placement and Retention
      Measure                  Approach               Numerator +                Denominator+
                       State-Developed, School   1999-2000 vocational       1999-2000 vocational
        3S1            Administered Surveys /    graduates placed           graduates
                       Placement Records
        3P1            State-Developed and       Program completers who     Program completers
                       Locally Administered      were placed- military,
                       Surveys / Placement       employment, or
                       Forms                     continuing education
Core Indicator 4 - Non-Traditional Participation and Completion
      Measure                 Approach                  Numerator                  Denominator
        4S1            State/Local               Females and males in       Total enrollment in the
                       Administrative Data       non-traditional            program with
                                                 occupational preparation   underrepresented
                                                                            genders
        4S2            State / Local             Females and males          Total enrollment of all
                       Administrative Data       completed                  program completers
        4P1            State / Local             Female and male            Enrollment in program
                       Administrative Data       students enrolled in       preparing for non-
                                                 program for non-           traditional employment
                                                 traditional employment
        4P2            State / Local             Female and males           Total program completers
                       Administrative Date       program completers of      for non-traditional
                                                 programs for non-          employment
                                                 traditional employment
+ Actual data KDTE used in the numerator and denominator to report on program performance
in the 2000-2001 CAR for Core Indicators 1,2, and 3




ED-OIG/A04-D0007                   FINAL REPORT                                     Page 20 of 30
Attachment B - Glossary

Vocational and technical program – Defined as organized technical educational activities that
(a) offer a sequence of courses that provides individuals with the academic and technical
knowledge and skills the individuals need to prepare for further education and for careers (other
than careers requiring a baccalaureate, master’s or doctoral degree) in current or emerging
employment sectors and (b) includes competency-based applied learning that contributes to the
academic knowledge, higher-order reasoning and problem-solving skills of an individual.


Technical Education Database System (TEDS) - The official database used in Kentucky to
capture student data for all vocational/technical programs taught in Kentucky. Universities,
community and technical colleges, state-operated area technology centers, locally owned area
technology centers, high schools and middle schools report technical program student data to
TEDS.


Special Populations – Designated categories specified under Perkins III including: Displaced
Homemaker, Single Parent, and Single Pregnant Woman. Special populations also include
individuals from economically disadvantaged families, individuals with disabilities and
individuals with other barriers to educational achievement.


Termination status - A termination status is entered for students when they exit the program in
which they were enrolled. ‘Completer’, ‘leaver’ and ‘transfer’ are the three categories for the
termination status form preparatory students.


Completer – Secondary student who leaves secondary education and earns a high school
diploma and post-secondary student who completes the requirements to receive a credential for
the technical program.


Leaver- Secondary student who did not complete technical program and is not longer enrolled in
a secondary school or a post-secondary student who exit the technical program and does not
complete the requirement for any credential.


Transfer - Secondary or post-secondary student who was enrolled in a vocational program, but
transferred to another program in the same or different school.




ED-OIG/A04-D0007                    FINAL REPORT                                  Page 21 of 30
Attachment C – KDTE’s Written Response to the Draft Report




                            Cabinet for Workforce Development
                                      Department for Technical Ed uca tion
                                 ~M   _   _      •   C~ "'   ... . _        •   h -"_ ~,         <tOIo0 1    Emil S. 1~!lIk
                                              ' >Ol l ~l86             1·... ~ I WllI~-let'JO
                                                                                                             """'-
                                                Sep,em!:x:r 24. 2003

       M r. J. Wayne Bynum
       Regional [ns\>I.'1:lor G ~l1trJI for Audit
       U. S. Department of Education
       OffiL'l: of Inspector GcneT31
       6 1 Forsyth StrL'CI. Room 18171
       Atlanta. Georgia 30303

       Dear Mr.Bynum:

       The Kentuck y respon ses to the recommendations included in the draft audit report .
       Coolrol Number ED·OIGIA04·DOOO7 arc cnclOSL-d.

       We wen: aware of the probll'lTls with the Technical Ed ucat ion Data System to r the
       program year 2000- 200 1. We worked wilh the proGfOImn1l:n; and others to com:cl lhc
       bugs in the system and addressed oonn ecth'ity iS5UCl1 in various parts nf thc
       Commonwea lth. This was done \0 (:Ilsure the systml provided the infonnation needed
       for 3Coountabili,y and evaluation. We now use II W EB· based ~YS lcm thaI is work ing. So
       far, when problems with the WEB TEDS system ari se, they arc q uickl y resolved.
       Tech nical :assist:ance WIIS lind is provid«\ through phone ca lis, e-mails, trai n ing sessio ns
       f<'lr WE B T EDS US<.YS. ~ man .....1 that is updated Il5 changes II~ made. and II calendar of
       even ts for the year. Remindl:B are sent to the WEB TEDS users w ncemi ng deadlines or
       ini lialion of a panicular WEB TEDS aCl ivily on a specific date.

       The stat ..,n<.'T11 on page 8 of 18 regardi ng tcnninatinn dates havi ng II direct effect on the
       appropriate PrulVllm year the studcnt actoally co mpleted the r rogrum seems to be II
       miscommunication. Stodent s' program completion and high schoo l graduation data are
       enle~d int o the s ystem aficr the comme ncem ent activities arc fi nis hed. 11 is possi ble the
       data entry occurred in a new prob'1'am year. but the data is entered in the program year the
       pmgramlg=tuali on completion occurred.

       Some of the activities thai will be initialed will Dccome ongoi ng activities. Ongoi ng
       :N:livities are the following:

                First busi ness day oftbe month
                                                              'R~';":,:;:;~:,:sce i r data bei ng tIltered
                                                             (                           not entering data




                                      Eq ..... ( Educ~tioo ~nd £mr1oym" .'It Opponunili... MlFIO




ED-OIG/A04-D0007                                     FINAL REPORT                                                     Page 22 of 30 

Attachment C – KDTE’s Written Response to the Draft Report




             OctobeT I                               Identify schools for data audits
             October IS                              Initiate data audit on-site vimts
                                                     Import STI data from local school districts
                                                     Lock 1999-2003 data in WEB TEDS
                                                     Exception: 03 JKlsitive placements of
                                                     Program oompletersfschool gmduates
             November I                              New reports review for accountability
             November IS                             Import of CATS Assessment Results for 03
             November IS                             Identify procedures to interface with
                                                     Un(..'111ploymenl insurance data
             November 15                             Complete suggested documentation for
                                                     source documents 10 validate data entered
              December I                             Design .~urvey instrument to get names of
                                                     programs with sequenee of oouroe~ for each
                                                     program from each institution alTering
                                                     program~ (for eligible agency to make
                                                     al locations)

      It is our intent to have accurate and va lid data to be used for accountability purpost:S and
      for program evaluation.

      If you nMd "dd;T;onal infonnllt;oll , plea"" call   B~Tjc   Tipton , SamJt Galliher, or Ocbora
      Almgren 8t 502-564-4286.




      Emi l Jeli).;
      Commi§sionc

      En losur




ED-OIG/A04-D0007                               FINAL REPORT                                            Page 23 of 30 

Attachment C – KDTE’s Written Response to the Draft Report




       Finding I - KDTE'$ !\h n a g~ me nt Controll W~rr. In a deq uate to En sure the Data
       Report~ to the Dep a rtment in the 20 00-2001 C AR Were C omplete, Acc urate, a nd
       Reliable

      Kentucky initiated an eh.·~U"Qnic data SystCfll in program year J 999-2000. School
      personnel compl eted a paper roster for their programs and sent the roSt~ to the Centr.ll
      Office to be entered into the data system. The firsl generation TEDS (Technica l
      Education 011.111. SyStem) was developed prior (late 1997 and 1998) to thc reauthorization
      oflhe 1998 Perkins Act. The data system required the program to be installed on each
      l<.>C11l user's computer to e nter thc data into the ~}'$tem. Ind ividu als trying to enter the
      dat il. had II host of prob lcms sueh as the system would not save the entered data, Ihe y
      could not sign on to the ~~tem or shortly alter they signed on, the $ystc:m closed down.
      Thc consultants pro vidi ng tC1::hn ical assistance to the ~ys\(. m WiCT'$ had somc of the same
      problems a.~ Ihe loca l users. Other problems included getting different information on the
      same report printed more than once in the same day. Thc s)'$ tcm wou ld work for some
      schools and wo ul d not work for other schools. The system was flawed. During te<:hnical
      assistance conversations with fX!rsonnel in the Office of Ad ult and Vocational Education,
      the problems we were having wi th Qur data system were mentioned. The comment s back
      to us were all states were having problems. In some o rtbe accountabi lity professional
      development meet ings. the topics of d iscussion were the problems Slates were having
      with their data systems.

       Be<:ausc of a11th e problems we ellpericnccd with thc new system. we knew the data was
       nOl accuratc and that the system nl!Cded to be fIXed to have more accurate data. One o f
       the mOSt frequent com plainl.~ about the TEDS s)'$lem for that year was that data was
       entered and the program would not save the data. When schools showed!,lp with no data,
       we had nO way o f know in g whether it was becau.~e the data had not been entCfCd or it had
       1x.'CJ\ entered iUJd Ihe sJlitem did nOt save the data. Our efforts werc directed toward
       gcning a system that would work. A new WEB TEDS was developed and it is
       opt:r<ltional. Bcsides Ihe new web system. a variety of reports nectlcd fur program
       evaluation and accountabi lity WC1'e identified. A priority list o f the reports to be revised
       M devcl oped has been estahlished, and reports have bt."C!\ revised, developed Or are in the
       process of development. This is an on-going process.

       Section 121 (2) orthe Perkins law states "the el igible agency may delegate any of the
       other responsibilities that in volve administration. operation. supervision o f activities
       assish:d und(.'1' this tille, in whole or in pan, to I or more appropriate state agencies".
       Supervisor. revicw and approval uf local plans for program improvement, monitori ng,
       and accountab ility wen: del egated to the KenlUcky Department of Education. The
       Kentuck y Department for T(."Chn ical Education calculatoo the allocatiuns for the local
       schoo l districts and forwarded Ihe allocations \0 the Kentucky Department o f Education.
       Th e Department o f Education notified the local school d istrict s o f the appropriate
       all ocati on and the steps the districts must take to have thei r local plans approved prior to
       expending federal funds. The Department of Education approved the district local pl ans
       aod was respons ible for mo niforing the cllpenditun."S aRd the data entry.




ED-OIG/A04-D0007                               FINAL REPORT                                              Page 24 of 30 

Attachment C – KDTE’s Written Response to the Draft Report




       In the initial stages of identifying the Kentucky p...rformanee indicators and the support
       documentation nttlk-d to calculate the percentages, some of the support documentation
       we n...oedcd was not included in TE DS. ' 1111': TEDS system did not capture high school
       sradulllion bt:<,:"""" it was basl-d on the previous accountability measures and the previous
       da!:l system. However, the data WM available in reports from the D"partmt:nt of
       Education and we agreed 10 use that data so the lo-cal s<:hools would not\)(: required to
       ent er the data twicc. Graduation clIi t tlata is now a part of the new WEB TEDS.

       The source document for follow-up of st udents in local school districts (successfu l
       placement after program complt'lionlgraduDli on for secondary students) was also a
       Department of Education report. This placement rcport was chosen as the backup data
       lor local school distriet$ so they wou ld not have to enter data in two ditli.,-.;m reports.
       However, thc data that intiicaled thl;: typo.; of placement included all students who
       graduated and did not separ:ate out the Sluticnt$ ...nrolled in technical education programs.
       The only choice was to use e:stimat~ based on the number of students who completed the
       program. The 2000-200 I placement (successful tran~;tion) report was nOI avai lable from
       the IXpartment of Education; the only choice we had was to use 1999-2000 data. We
       were told to use the dalll we had, but therc is no documentation. This has also been
       CQm:cl~-d. Th~ tcnnination status entered on the student's record in WEB TEDS
       indieatcs when the students graduate:< from high sch<KI1. Bttause of teachers' rcqU<.::its.
       we are in the process of combining Kentuck y Department of Education Tr,1Osition Report
       and the Kentucky Technical Educat ion Follow-up Report to be used (or reporting
       purposes for hath agencies. This is in process.

       RE COMMENDATIONS

       1.1 Establish controls to e nsure that all sub-n..""Ci picnts meet Pcr1cins In performance
           reporting requirements and submit performance data. as required.

           The eligible agency will run monthly reports for each school with an approved
           te.::llnical education progrdm to Ymfy that appropriate data is being entered so that
           the reports used to complete the CA R will be complete, In addition to the eligible
           agency ch~""Cking the monthly reports, each agency that has a Memorandum o f
           Agreement with the eligible agency will be asked to monitor the progress of data
           l'ntry each month and work with their instirutions to get the data enlered in a timely
           fashio n. Those agencics wil l be responsiblc for rcporting U,) the eligible agency on a
           mumhly basis. The eligible agency will provide a chlX:k-sheet to the IIgenci~ with
           MOAs to assist in preparing their monthly reports. The eligible agency wi11 also
           contact any of the schools that have not entered data, entcred Yery little data. or arc
           not meeting the dates on the events calendar to offer technical assistance.

           Octobt."T 15 of each year has been established as the dale all data for the applicable
           program year wil l be locked into the system. Eligible recipients will not be able to
           make changes in the data that has been entered for thaI progmm year exeept for
           student follow-up. The (ollow-up of students who complettd the program and
           graduated will not be completed until si!( months after they leave the insti tution.




ED-OIG/A04-D0007                              FINAL REPORT                                             Page 25 of 30 

Attachment C – KDTE’s Written Response to the Draft Report




           Each eligible recipient will be required to submit to the eligible agency
           documentation of the approved programs offered at the iru>li rutions each school year
           prior to fuods being allocated to the schoo ls. The documentation wilt include Ihe
           munc of the technic::.l education program and the scqucnee of eoul'SC"$ to be offered
           fOl" the appropriatc program year. If 1IJl insli tution docs not submit pcrfonmtm;;c datil,
           funds will not be allocated to Ihe instiTUlion/loeal school distriet for the new reporting
           year. The Sl::hools' prognuns with scqUl"TlCC:S of courses will be compared to the iliIta
           in TEDS to identify new PfO!!TllIIlS and to mnfion that proyrams are still available
           for students who choose technical edUCation.

           A fier the allocations are made, monthly reviews of data entry will be oonducted \0
           see if the schools lire entering d ata. The school will be called to see if tcchniC!lI
           assistance is needed to inpullhe data. During the year if a school is nOI entering data
           needed for the perfoonance ind icators and has turned down offers of technical
           Msistance, an on-sile visit will be made to provide one-Io-one lechnical assistance. If
           this fails. their requc:sts for financial rcimbun;l"lTlent will not be approved. The
           agencies with MOAs will make technical assistance visi ls 10 the schools wi th
           problems and report their find ings to the Depamnent for Technical Educati on. In
           lIddition, the Dqwtrnenl forTcchnical Education will make selected on-site visits to
           schools that are not ~-ntcring the data needed for aceouTllabili ty. Some of the visiu
           will be with the MOA agencies and other visits will be only the Dcputrnem for
           Tcdlnical Educalion personnel. A ched. list has been de"clopod to be used during
           Ihe on-site visi t to validate the accuraey of the data.

           TEDS truining sessions have be<:n held for school! to learn how to use the system,
           and technical assistanee is available through e-mo il, phon.: calls, 8Ild on·site visits.
           'Iltesc activities will continue. In some 5ChooI5., morc than one person entas data
           into the TEDS s)'Stem; efforts wt\1 be made 10 have one penon per sch ool to be the
           dala entry pt:T$Ofl so that the data enlcn:d will be consislent. In addition, there are
           several activities that have different definitions of a progrnm completer. In service
           and written :u.sistance will be provided .'lO thllJ the data entry pctlIOn will know which
           oomplctCl' definition 10 usc ror the accountability purposes. A list of 3VUfI:I:
           d.)o.:unumts the local schools ml.lSt keep to validatc the aCl:uruey or the entered d4ta
           will be developed.

       1.2 ~ n surf th at the d a ta collec tion system a Uowll ub-reci pien n to input a ll required
           d ata th a t penain to the applicable pro gram yea r,

           Th e data system has been revised to indude all the data needed for Ihe Annual
           Consolidated Report with the exception of the CATS (Commonwealth
           Accountability and Testing System) Engl ish test score to measure the academic
           u1tai nmt."Tlt fur students who attend the area technology centers. Efforts ha ve been
           made to get the data CVCT si nce the U.S, Dcpanment of Eduauion aeeepted the
           English lest score of seniors as the measure of academic attainment, Howe.... er, the
           Kentucky I:k:partmcnt O!''Educali on continues 10 1i5C the privacy of~ludents as the
           reason for OOt releasing the aggregate data by school to the state operated area




ED-OIG/A04-D0007                             FINAL REPORT                                                Page 26 of 30 

Attachment C – KDTE’s Written Response to the Draft Report




          tIX:hnology centers. The EDGAR regulations that state the information may be
          rclcasoo without permission (fthe data is neetled to report to the Federal government
          or the State government have been shared with the Divi~iQn of Cart:i:T and TIX:hnieal
          Education. The Departmcnt for Technical Education does not have Ihe data 10 dalc.

          The Kcntucky Dt.-partmcnt of Educat ion has a data system that all local school
          districts must usc. Currentty, the Department of Education and the Department for
          Tcchnical Education iln: working on an import oftlX:hnical education student data
          from Ihc Department of Education to TEDS. Th is will eliminate local school di strict
          technical edocation personnel entering stodent data into tWO different systems and
          should incrcasc thc accuracy and validity ort hc data in the T EDS system. The initial
          import contact pcniOn left the Department of Education and we arc working with
          personnel who were not been involved in the planning process.

          Pcn;onnel from loca l school districts have also asked if we could revise the student
          follow-up survey (placement) to include categorieslhat will gel the data needed for
          tIX:hnical education students for the Consolidated Annual Report and the Kenllleky
          Department of Education reporti ng requirements. The TEDS follow+up instrument
          is being revised to accomplish this la~k.

          Jefferson County is thc largest schoo l district in the Commonwealth and WllS scnding
          us paper rccords. An import pr~ to TEDS h IlS bt.""Cn developed and tested for
          Jefferson County. The fir:sttell of the impon process did nOt work because the files
          were tOO ta rge; the process did work with smaller amounts of import data in the
          files.

          The eligib le agency will conduct period ic data audits in high schools and locally
          opemted area technology centers. state operated area tcchno logy centers. and
          postsecondary institutions. The sitcs to be visited will be delcnnined based o n the
          mon thly reviews of data cntered and schools that are slow in gelling the data entered.
          While (1Ilhe site, suppon documents to validale the dill" will bc reviewed, and the
          datil entry person will be interviewed to veri fy thc dcfinitions used for data entry is
          the COlTect definition for reporting perfonnanct: measures.

      1.3 Disclose th e use o r est iml tes., previous year's dltl, a nd any other dltl quality
          iss ues tb a t a ffIX:t the co mpldrn ess. accuracy and reliability oftbe d ata In the
          CA R .

          It is our plan to have performanec data for each reporting year /Tom all eligible
          recipients so that it wi ll not be necessary to usc estimates or previoWl year's data.
          Huwever. if il tx.-comcs necessary, we will report in thc CAR anything that may
          affect the completeness, accuracy Or ",liability o r lhe data in the Conso lidated
          Annual Report.

      Findin g 2 • Sub-r«i p ien lS Reporttd In accura te PeFrormanCe Dl ta to KDTE ror
      Program Yea r 2000-200 1




ED-OIG/A04-D0007                             FINAL REPORT                                            Page 27 of 30 

Attachment C – KDTE’s Written Response to the Draft Report




       The design of the tabled fields in the old TEDS syStl.'Jn made it ea.~y to
       select the wrong item in the menu list. Some of the inaccurate data entries can be
       attributed to the design or the data entry. The WEB TEOS pul1..uown menus arc
       des igned 10 minimize inoolTC!C1 selections. Screen edits have been implemented when
       appropriate. The TEDS training included the identification of source data entry
       OOc lltncnts and it was incllldcd in the TEDS Manllal. Definiti on~ of terms were included
       in the TEDS Munual. However, the tumOVl."T11Ite orthe individuals who entered thed~ta
       into TEDS was high.

       We bclie'·c the statement on page 8 of 18 regarding termination dates having a direct
       e!Tect on the appropriate program year the student actuaJly completed the program
       was a miscommuni cation during the visit. The date the student exited the program has
       nothi ng 10 do with Ihe program ycar. Each student record in WEB TEDS includes lhe
       school year in which the siudent was enrolled. Report!:l arc generated based on the school
       year included in the student rl."'Conls. Students who continue in the program will not have
       an e)lit date. Enrollment r«:ords for returning students roll over from om: year to another
       at the beginning orthe m;xl school yeilJ" (program year). If the srudent docs not come
       back to the program at the beginning of the nellt schOl)l year, the student shows lin
       appropria te exit in the previous program year. Student records stay in the system, and if
       the student com..,.. back to the program the second semester, the appropriate entries a.rc
       made in the system. Postsecondary institutions do not know whClhl..... o r not Ihe student
       will rctun! to school until the studl.'Ots n.1.um to the program the second semester or the
       nut ycar (program year). If the studem docs 001 return, the stud",nt is tcnninated in thc
       appropriatc program year they were enrolled in the program. This could also occur in
       the secondary prognuns from one semester to llIIother or block to block.

       The state operated area technology centers have to depend on the feeder schools
       to provide the documentation to identity special populations, i.e. a student who needs
       curriculum modifications because of an educational barrier ur is economically
       disadvantaged. The slUdcnt privacy rights have been an issue in id entifying students who
       meet the special populations definitions.

       RECOMMENDATIONS
       2. 1 Establish l.untrols, including data review, to ensure that sub-recipients submit
            accurate student perfonnance data.

           As mentioned in other pans of this report, monthly reviews of data entered into
           WEB TEDS will be conducted by running reports for each institl11ion to identify
           schools that have data missing. Schools thallaek data will be reminded thai the dala
           needs to be entered, anothey will be lISked if then: is II. problem with the system. In
           addition to that, periodic visi ts to schools will be made to audit the data entered and
           the source documents used to enter the data.

       2.2 Monitor sUb-recipiems \d- evaluate the progr~ made in im proving perfonnanee
           quality.




ED-OIG/A04-D0007                             FINAL REPORT                                             Page 28 of 30 

Attachment C – KDTE’s Written Response to the Draft Report




           Each person entering data into WEB TEDS will be 5ent a list of suggested source
           documems to back up the dam emered into WEBTEDS. This s uggested 1i~t of
           source documents will help users identify the types of documen ts they must keep on
           file 10 verify accurate and valid data entered into TEDS. The el igible agency will
           monitor th e school s to evaluate the progrc1:lS mad" in improv ing perfonnance qualit y.
           Other slate agency personnel delegated with authority 10 operate and monitor
           school s rc.:civing fedctal funds will eval uate the progress made in improving a
           school's perfonnanee quality. Each agency with. an MOA will forward their reports
           to thc Depill1ment fur Technicill Ed ucation. The responsibility for these visits will
           be induded in tbe Memorandum of Agreement.

       2.3 Disclose an y si8llificant prob lems or difficul ties in 1l."POl1ing comp lete, accunue, and
           reliable data to the Department alOll1:\ with tht: corrective action taken to alleviate
           these problems in future CARs.

            Our plan i$ to report comp1c:le, accumte, and reliable data to the Depanment; when
            we have a problem with data quality, it will be noted in the CAR with an explanation
            of the action taken to correct or alleviate the problem(s).

       Findin g 3: In adequa te system to identify s ub-rec ipients n ot meedng per(ormanee
       levels

       I\s indicated in the report and verifit-d by school personnel, (or the year being audi ted,
       2000· 200 1, the TEDS database retained only original data entered into the system. If a
       school made an error in their data entry and re-mtered the data. the n.~cntry was lost and
       the original entry remained. After running ou r first summary report in November, il was
       noted that data for the area technology eenters looked incomplete. Schools were notified
       to check their data and make com:ctions. The schools did this, but the co~tions they
       enterod did nO! remain in the system. We were not confident thai the data being Sent \0
       Wil5hington was accurate. With the school s believi ng the data within TEDS did no!
       accurately rel1eet the makeup o f the school s, we made the deci s ion not to ask A TC's for
       plans for improvement for pcrfo nnance data. We believed it would be beneficial for
       sc hools to develop a plan for improvement when they had oonfidenee in the data being
       USl.-d to dctCTTJIine performance criteria, and that the time spent developing a plan o(
       improvement would be better spent detenni ning what wem wrong with the system and
       formulating a plan to assure th at it did not happen again.

       In ordCT to ensu re that the current da tabase captures Illlthe Pcrlc:ins perfonnanec reporting
       requiremcnts, our staff has worked with the programmers to develo p a web-based system
       that ha s been tested to assure that changes to data can be captured and maintai ned, menus
       are more user friendly, and sun,mary rcports are easi ...,. 10 p"'pare at the schoollcvc1 so
       prineipal~ and database administrators eiln detenninc if entered data is aCCUfllle within the
       system. In additio n, beginning October I, the Department lor T L"Chn ical Education will
       begin implementing on-sile data monitoring visits 10 verify that data being enteroo into
       the system is accurate and timel y; to provide technicatassistance 10 school pcr50Mcl on
       data entry, definitions or OthCT CAR-related items; and to verify thai backup




ED-OIG/A04-D0007                               FINAL REPORT                                               Page 29 of 30 

Attachment C – KDTE’s Written Response to the Draft Report




       documentation is available to suppa., accountability info rmation entered into TEDS. A
       copy of the draft form 10 be used during the data·monitoring visit is attached.

       III order lu assure that an improvemem plan process is implemented for all sub-recipients
       that do not meet established program performance levels. a new program will be
       developed to pmdUl:1: Ilfl a«ountability report for I:ach s<;hool in thl: systl:m . Thl: report
       will be based on the performance indicators approved by the U. S. Department of
       Education. The repa" will include the performance of each program in the school as we ll
       as the overall institution performance in meeti ng the performance indicators. Schools
       will be required to submit 3 plan for improving their performance levels by improving
       programs. The local application fo~ the ne,,\ school yelll" must reflect how the funds will
       be used to improve the programs that did not m ed the performance indicators and
       increase student aehii,.'Vcmo.:nt. Schools that do not submit their plan for improving
       performance will risk losi ng Perkins funding.




ED-OIG/A04-D0007                              FINAL REPORT                                               Page 30 of 30 

